W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-1329

Macarieto I. Trayvilla, et al.

Japan Airlines, et al.

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Andrew Harakas

Date:

4/15/21

Digitally signed by: Andrew Harakas
DN: CN = Andrew Harakas email = AndrewJ.Harakas@clydeco.us OU = Azure Users, ARO, US-NYC
Date: 2021.04.15 11:46:15 -04'00'

(Type or print) Name Andrew J. Harakas
Mr.
Firm

Clyde & Co US LLP

Address

405 Lexington Avenue

City & State

New York, NY

Phone

212-710-3920

Ms.

Mrs.

Miss

Zip 10174
Email andrew.harakas@clydeco.us

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Rey Louis Trayvilla, Esq.
Celestina Pinero-Trayvilla
Macarieto I. Trayvilla
Sherry Lyn Dorado-Trayvilla

